No. 20-311

3ftt %\)t

Supreme Court of tlje fHnttefc States
DEBORAH WALTON
Petitioner,

Supreme Court, US.
FILED

Ml'4/ -2 2020
V.

OFFICE OF THE CLFRK

FIRST MERCHANTS BANK,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

PETITION FOR REHEARING

Deborah Walton
P.0 Box 598
Westfield, Indiana 46074
(317) 565-6477

1

TABLE OF CONTENTS

TABLE OF CONTENTS.......................................
TABLE OF AUTHORITIES.................................
PETITION FOR REHEARING............................
REASONS FOR PETITION FOR REHEARING

n
1
1

New substantial grounds not previously presented warrant
rehearing of the denial of Walton’s Petition for Writ of Certiorari

1

Overdraft Protection is costing Consumers and Shareholders
Millions of dollars even after Congressional Regulation of
Overdraft Fees........................................ ....................................

2

CONCLUSION

5

1

11

TABLE OF AUTHORITIES

Cases
Chambers v. NASA Fed. Credit Union, 222 F. Supp. 3d 1, 6 (D.D.C.
2016)........................................................................................................

4

Rules
Rule 44.2

1

Statues
Regulation E, 12 C.F.R. pt. 1005

3

12 C.F.R. § 1005.17(b)(l)(i)

4

Federal Reserve, id. § 1005.17(d)

4

Other Authorities
Dodd Frank Act

,.2

Electronic Fund Transfers, 74 Fed. Reg. 59,033, 59,033

2

17-14968 Date Filed: 08/27/2019 Page: 3 of 29 4

3

17-14968 Date Filed: 08/27/2019 Page: 4 of 29 5

4

17-14968 Date Filed: 08/27/2019 Page: 5 of 29 6

5

1

PETITION FOR REHEARING
Pursuant to Rule 44.2 of the Rules of the United States Supreme Court,
Deborah Walton respectfully petitions for rehearing of this Court’s October 19, 2020
Order denying her petition for a writ of certiorari. Walton has petitioned this Court
to Remand this case back to the District Court, in the Southern District of Indiana,
to be included in the upcoming Trial on her surviving TCPA claim. When the Dodd
Frank Act was enacted, which includes the Electronic Funds Transfer Act (EFTA)
that requires a valid consent form, before any Institution, backed by the Federal
Reserve Board can legally withdraw funds from a Consumers Account.
REASONS FOR GRANTIG THE PETITION FOR REHEARING
1. New substantial grounds not previously presented warrant
rehearing of the denial of Walton’s Petition for Writ of Certiorari.
Rule 44.2 of the Rules of the Supreme Court of the United States allows
Petitioners, to file petitions for rehearing of the denial of a petition for writ of
certiorari and permits rehearing on the basis of “substantial grounds not previously
presented.”
The substantial, grounds in this case is a renewed national focus on the way
Institutions impose fees upon Consumers whom have never Opted-In to overdraft
protection. This illegal process allows Publicly Traded Institutions to increase their
profitability, by inflating their illegal profits, for the sole purpose of reporting gains
to their shareholders. However; at the end of the day, it’s the shareholder that will

2

ultimately suffer. See TD Bank’s fine by the Consumer Financial Protection Bureau
for Overdraft Protection abuse.1
The Federal Reserve Board has laid out a very comprehensive, with extensive
guidelines on Regulation E, which was enacted under the Dodd Frank Act. The
enforcing agencies: Security Exchange Commission, Department of Justice, Federal
Reserve Board and Consumer Financial Protection Bureau, all play a vital role, in
enforcing the Dodd Frank Act. If the governing agencies aren’t enough to show
that the abuse of Overdraft Protection is a Statewide issue, then what is.
2. Overdraft Protection is costing Consumers and Shareholders
Millions of dollars even after Congressional Regulation of Overdraft
Fees.
When Congress defined “Overdraft” as a banking term describing a deficit in
a bank account caused by drawing more money than the account holds. Before the
development of electronic fund transfer (EFT) systems, banks generally provided
overdraft coverage for check transactions only. See Electronic Fund Transfers, 74
Fed. Reg. 59,033, 59,033 (Nov. 17, 2009). When a bank customer overdrew her
account by writing a check in an amount that exceeded the amount of funds in the
account, her financial institution applied its discretion in deciding whether to honor
the customer’s draft, in effect extending a small fine of credit to its customer and
imposing a small fee for the convenience. Id.

1 TD Bank agreed to pay $97 million in restitution to approximately 1.42 million customers, as well as a
$25 million civil penalty to settle allegations brought by the Consumer Financial Protection Bureau that it
engaged in illegal overdraft fee practices. Aug 21,2020

3

Online banking transformed how financial institutions handled overdrafts
and overdraft fees. New EFT systems provided customers with more ways to make
payments from their accounts, including automatic teller machine (ATM)
withdrawals, debit card transactions, online purchases, and transfers to other
accounts. Id. Most financial institutions chose to extend their overdraft coverage to
all EFT transactions. Some further decided to cover automatically all overdrafts
their customers might generate from their EFTs. Id. These changes had the Case:
17-14968 Date Filed: 08/27/2019 Page: 3 of 29 4 benefit to financial institutions of
“reduc[ing] cost[s]” from manually reviewing individual transactions and furthering
“consistent treatment of consumers.” Id. at 59,033-34. But they came at a
significant and sometimes unexpected cost to consumers: financial institutions
generally assessed a flat fee each time an overdraft occurred, sometimes charging
additional fees—for each day an account remained overdrawn, for example, or
incrementally higher fees as the number of overdrafts increased. Id. at 59,033.
Congress enacted EFTA with the aim of outlining the rights, responsibilities,
and obligations of individuals and institutions using EFT systems. Id. In EFTA’s
implementing regulations (Regulation E, 12 C.F.R. pt. 1005), Congress set out to
“assist consumers in understanding how overdraft services provided by their
institutions operate and to ensure that consumers have the opportunity to limit the
overdraft costs associated with ATM and one-time debit card transactions where
such services do not meet their needs.” Id. at 59,035. Doing away with the practice
of automatic enrollment of consumers in overdraft coverage, Regulation E required

4

financial institutions to secure consumers’ “affirmative consent” to overdraft
services through an opt-in notice. Id. at 59,036. The opt-in notice was to be
“segregated from all other information describing the institution’s overdraft
service,” 12 C.F.R. § 1005.17(b)(l)(i), and be “substantially similar” to a model form
(Model Form A-9) provided by the Federal Reserve, id. § 1005.17(d). Case: 17-14968
Date Filed: 08/27/2019 Page: 4 of 29 5
“But the opt-in requirement and model form have not dispelled all the
controversy and confusion surrounding overdraft fees.” Chambers v. NASA Fed.
Credit Union, 222 F. Supp. 3d 1, 6 (D.D.C. 2016). Model Form A-9 does not address
which account balance calculation method a financial institution should use to
determine whether a transaction results in an overdraft. See 12 C.F.R. pt. 1005,
app. A. Without any such provision in the model form, “some financial institutions
have failed to disclose the balance calculation method that they use to determine
whether a transaction results in an overdraft.” Chambers, 222 F. Supp. 3d at 6.
In determining whether a customer has made a withdrawal or incurred a
debit that exceeds the balance in her account—an overdraft—financial institutions
typically use one of two methods of calculating the balance in a customer’s account:
the “ledger” balance method or the “available” balance method. The ledger balance
method considers only settled transactions; the available balance method considers
both settled transactions and authorized but not yet settled transactions, as well as
deposits placed on hold that have not yet cleared. Consumer Fin. Prot. Bureau,
Supervisory Highlights 8 (Winter 2015), available at

5

https://files.consumerfinance.gov/fy201503_cfpb_supervisory-highlightswinter2015.pdf (last visited May 24, 2019). These two competing methods of
calculating a consumer’s balance and charging overdraft fees based on that balance
he at the heart of this case. (Case: 17-14968 Date Filed: 08/27/2019 Page: 5 of 29 6)

CONCLUSION
Rehearing is appropriate here, because Walton has met this Court’s
requirement for rehearing under Rule 44.2. Rehearing is justified in light of the
substantial events that require every court in this country — including the U.S.
Supreme Court — to renew their commitments to recognizing those laws and
precedents which uphold systemic fee shifting. The Court should grant Rehearing
and reverse the denial of the Petition for Writ of Certiorari.

Respectfully submitted,

Deborah Walton
P.0 Box 598
Westfield, Indiana 46074
(317) 565-6477

No. 20-311

3Jn me
Supreme Court of tfje Untteb States?
DEBORAH WALTON
Petitioner,
v.
FIRST MERCHANTS BANK,
Respondents.

RULE 44.2 CERTIFICATE OF PRO SE
Pursuant to Rule 44.2, the undersigned pro se Deborah Walton hereby certifies
that the attached petition for rehearing of an order denying writ of certiorari is
restricted to the grounds specified in Rule 44.2: it is limited to substantial
circumstances of a substantial or controlling effect or to other substantial grounds
not previously presented. Walton further certifies that the attached petition is
presented in good faith and not for delay.

Deborah Walton
P.0 Box 598
Westfield, Indiana 46074
(317) 565-6477

